March 20, 1995

IG-1

INFORMATION: Report on "Audit of the Richland Operations
Office Site Characterization Program"

The Secretary

BACKGROUND:

With its designation as an environmental cleanup site in 1989,
the Hanford Site has represented a major activity of the
Department of Energy (Department). The final cleanup of this
site is estimated to take over 50 years and cost close to $100
billion. Although there are many factors influencing the
operations at Hanford, the Department and the Richland
Operations Office (Richland) are ultimately responsible for its
success. The Department and Richland are responsible for
establishing procedures that ensure program goals are
accomplished using the most cost-effective methods.

DISCUSSION:

The Office of Inspector General audited certain methodologies
used by the Department and Richland to complete site
characterization objectives at Hanford. The audit disclosed
that characterization costs were increased without a similar
increase in benefits. For example, in implementing Defense
Nuclear Facilities Safety Board (Safety Board) recommendations,
the Department directed Richland to complete core-sampling of
high-level radioactive waste tanks in 3 rather than 6 years.
This action increased characterization costs by over $71
million, but was not needed to satisfy the Safety Board's
recommendation nor would it significantly impact the retrieval
and pretreatment of the waste.

In another action, Richland renegotiated a Tri-Party Agreement
milestone that required 80 percent of Hanford's low level waste
sample analyses be performed within 25 miles of Hanford.
Richland made this change without first determining whether the
25-mile restriction was more costly. In its response to our
Official Draft Report, Richland estimated that the 25-mile
restriction will add $46 million over the next 8 years to the
cost of sample analyses for Hanford.

We recommended that the Department (1) notify the appropriate
parties that characterization of the high level radioactive
waste tanks will be accomplished in the most effective and
least costly method to achieve characterization objectives, and
(2) renegotiate the requirement to have 80 percent of the
                               -2-


sample analyses performed within 25 miles of Hanford.   We also
recommended that management perform economic analyses of
alternatives before making decisions as to how program
objectives will be accomplished in the future. Management
concurred with the finding and recommendations and initiated
corrective measures.




                             John C. Layton
                             Inspector General

Attachment

cc:   Deputy Secretary
      Under Secretary
      Assistant Secretary, Environmental Management
      Manager, Richland Operations Office
                      U.S. DEPARTMENT OF ENERGY
                    OFFICE OF INSPECTOR GENERAL




              AUDIT OF THE RICHLAND OPERATIONS OFFICE
                   SITE CHARACTERIZATION PROGRAM




The Office of Audit Services wants to make the distribution of
its audit reports as customer friendly and cost effective as
possible. As a consequence, this report is available
electronically through the Internet at the following
alternative addresses:

             Department of Energy Headquarters Gopher
                        gopher.hr.doe.gov
          Department of Energy Headquarters Anonymous FTP
                        vm1.hqadmin.doe.gov

We are experimenting with various options to facilitate audit
report distribution. Your comments would be appreciated and
can be provided on the Customer Comment Form attached to the
Audit Report.




Report Number: DOE/IG-0368        Western Regional Audit Office
Date of Issue: March 20, 1995     Albuquerque, NM    87185D5400
             AUDIT OF THE RICHLAND OPERATIONS OFFICE
                  SITE CHARACTERIZATION PROGRAM



                            TABLE OF CONTENTS



                                                                 Pag
                                                                 e


          SUMMARY . . . . . . . . . . . . . . . . . . . . .      1

PART I    D APPROACH AND OVERVIEW . . . . . . . . . . . . .      3

          Introduction     . . . . . . . . . . . . . . . . . .   3

          Scope and Methodology . . . . . . . . . . . . . .      3

          Background     . . . . . . . . . . . . . . . . . . .   4

          Observations and Conclusions     . . . . . . . . . .   4

PART II   D FINDING AND RECOMMENDATIONS . . . . . . . . . .      7

            Site Characterization Activities     . . . . . . .   7

PART III D MANAGEMENT AND AUDITOR COMMENTS . . . . . . . . 13
             U.S. DEPARTMENT OF ENERGY
                   OFFICE OF INSPECTOR GENERAL
                    OFFICE OF AUDIT SERVICES


             AUDIT OF THE RICHLAND OPERATIONS OFFICE
                  SITE CHARACTERIZATION PROGRAM



                             SUMMARY

   In 1989 the Secretary of Energy changed the mission of the
Richland Operations Office (Richland) from supporting weapons
production to environmental restoration and waste management.
Richland's new mission required close coordination with Federal
and State Environmental Regulatory Agencies. On May 15, 1989,
Richland, the Washington State Department of Ecology, and the
U.S. Environmental Protection Agency negotiated and signed the
Hanford Federal Facility Agreement and Consent Order (Tri-Party
Agreement). Through this agreement, Richland was required to
survey Hanford for contaminants, analyze samples, and determine
the most cost-effective method to clean up the waste
identified. The objective of this audit was to determine if the
Department of Energy (Department) and Richland had evaluated
alternatives to accomplish certain site characterization
activities in a cost-effective manner.

   Our audit showed that neither the Department nor Richland
evaluated alternatives to ensure that two site characterization
activities were accomplished in a cost-effective manner.
First, the Department accelerated the core sampling program for
high-level radioactive waste tanks from 6 to 3 years. The
Department made this decision in response to a Defense Nuclear
Facilities Safety Board (Safety Board) recommendation without
first determining if the method chosen (core sampling) was the
most efficient and economical method to satisfy the Safety
Board's concerns. Based on Richland's 1994 Implementation
Plan, this 3-year acceleration would cost over $71 million with
little increase in benefits. Second, Richland agreed to a
Tri-Party Agreement Amendment to require low-level waste
samples be analyzed within 25 miles of Hanford. Richland
estimated in their June 1994 response to this report that the
25-mile restriction will require an additional $46 million over
an 8-year period. Again, the amendment was accepted and
implemented without first determining the additional costs
involved and comparing these costs to the anticipated benefits.

   We recommended that the Department (1) notify the
appropriate parties that characterization of the high-level
radioactive waste tanks will be completed in the most cost-
effective method to achieve program objectives, and (2)
negotiate to remove the requirement to perform 80 percent of
low-level waste sample analyses within 25 miles of Hanford. We
also recommended that management perform economic analyses of
alternatives before making decisions as to how program
objectives will be accomplished. Management concurred with the
finding and recommendations and initiated corrective measures.

                                 #=2

                                         (Authenticated)
                               PART I

                        APPROACH AND OVERVIEW


INTRODUCTION

   The primary mission of the Richland Operations Office
(Richland) is environmental restoration and waste management.
Our audit assessed the effectiveness of Richland's management
of certain site characterization activities in support of its
environmental restoration and waste management mission. The
specific audit objective was to determine if the Department and
Richland had evaluated alternatives to accomplish certain site
characterization activities in a cost-effective manner.

SCOPE AND METHODOLOGY

   We conducted this audit at Richland and Westinghouse Hanford
Company (Westinghouse), the Hanford Site Management and
Operating contractor, between August 1993 and July 1994.

   To accomplish the audit objective we:

   o reviewed applicable Federal regulations, Department
Orders, and local implementing procedures;

     o interviewed Richland and Westinghouse Environmental
Restoration and Waste Management personnel;

     o analyzed waste sampling requirements, extraction
techniques and extraction timetables, processing
effectiveness and cost;

     o reviewed safety concerns related to waste retrieval and
analysis procedures; and,

     o compared alternative methods to accomplish project
activities to those selected by the Department and
Richland.

     The audit was made according to generally accepted
Government auditing standards for performance audits and included
tests of internal controls and compliance with laws and
regulations to the extent necessary to satisfy the objective of
the audit. We assessed the significant internal controls with
respect to the Department's and Richland's project management
decisions for characterizing high-level radioactive waste and
procuring sample analysis capabilities. Our assessment (1)
identified the Department's key internal control procedures for
these areas, (2) tested the operation of those procedures, and
(3) identified any needed improvements. We did not rely on any
computer-processed data in developing this audit report. Because
our review was limited, it would not necessarily have disclosed
all internal control deficiencies that may have existed at the
time of our audit.

     An exit conference was held with Richland's Director,
Characterization Division, and a representative from
Headquarter's, Office of Hanford Waste Management Operations
(EM-36), on February 14 and 16, 1995, respectively.

BACKGROUND

     Richland is responsible for environmental restoration and
waste management at Hanford. Richland's responsibilities include
the characterization and cleanup of Hanford's 177 high-level
radioactive waste tanks and the identification, assessment,
remediation, and restoration of over 1,000 contaminated waste
sites.

     A number of regulatory organizations outside the Department
have oversight authority over cleanup actions at Hanford. These
organizations include the U.S. Environmental Protection Agency
and the Washington State Department of Ecology. These two
organizations, together with Richland, negotiated the Tri-Party
Agreement which serves as the underlying blueprint for most
cleanup activities at Hanford. The agreement contains provisions
governing hazardous waste activities, delineates authorities and
enforcement provisions (including fines), and provides a dispute-
resolution process. The agreement also includes an action plan
which contains enforceable milestones covering deadlines,
methods, procedures, and plans for waste site restoration and
remediation.

     An additional organization having oversight responsibility
over Department activities is the Defense Nuclear Facilities
Safety Board. The Safety Board's primary responsibility is to
review facilities and operations of the Department's defense
related activities and advise on safety issues. The Safety
Board, through its recommendations, identifies safety concerns
and recommends courses of corrective action. However, since the
Safety Board's recommendations are advisory to the Department,
they may be rejected.

OBSERVATIONS AND CONCLUSIONS

     Richland's mission has recently transitioned from supporting
nuclear weapons production to environmental restoration and waste
management. In response to its new mission, Richland has taken a
number of initiatives to expedite and improve the management of
cleanup activities at Hanford. For example, Richland developed
the Hanford Past Practice Strategy which has dramatically reduced
the number of samples required for site characterization. This
strategy, which is a model for revising the Hanford Remediation
Investigation/Feasibility Study process (RI/FS), uses field
screening techniques and concurrent characterization. The RI/FS
also reviews documentation on past practices to focus the
remedial investigation process on probable contaminants. Another
initiative established the Hanford Analytical Services Management
organization which has improved communication between Richland
and commercial laboratories. This organization was instrumental
in reducing sample analyses completion time to an average of 71
days, thereby complying with the Tri-Party Agreement limit of 75
days.

     Although such initiatives helped reduce costs and achieve
site characterization objectives, the Department will spend over
$117 million on two characterization activities with little
increase in benefits. First, based on a recommendation by the
Safety Board to accelerate safety screening, the Department
directed Richland to complete core sampling of high-level
radioactive waste tanks by 1996, rather than by 1999 as required
by the Tri-Party Agreement. The Department made the decision to
accelerate core sampling, without performing economic analyses of
alternatives to identify and implement the most cost-effective
approach. Based on documentation available to us, we estimated
the decision to accelerate core sampling will increase
characterization costs by over $71 million.

     Second, in 1993 Richland renegotiated a Tri-Party Agreement
milestone to require that 80 percent of Hanford's low-level waste
sample analyses be performed within 25 miles of Hanford.
However, Richland did not know the additional costs associated
with this decision because it did not perform economic analyses
of the available procurement alternatives. In its response to an
earlier draft report, Richland estimated that the 25-mile
restriction will add $46 million over the next 8 years to the
cost of sample analyses for Hanford.

     Neither the Department nor Richland evaluated alternatives
before deciding on more costly methods to complete characteriza-
tion objectives. Furthermore, neither of these more costly
methods will significantly enhance the cleanup efforts at
Hanford.

     We recommended that the Department (1) notify the
appropriate parties that characterization of the high-level
radioactive waste tanks will be accomplished in the most
effective and least costly method to achieve characterization
objectives, and (2) renegotiate the requirement to have 80
percent of the sample analyses performed within 25 miles of
Hanford. We also recommended that management perform economic
analyses before making decisions as to how program objectives
will be accomplished. Management concurred with the
recommendations and initiated corrective actions.

     Our review disclosed material control weaknesses that the
Department should consider when preparing its yearend assurance
memorandum on internal controls.
                              PART II

                    FINDING AND RECOMMENDATIONS

                 Site Characterization Activities
FINDING

     An important project management concept is that managers
select the most cost-effective alternatives to achieve program
objectives. In two instances, however, the Department and
Richland agreed to changes which increased costs without
determining increase in benefits. First, rather than complete
core sampling of high-level radioactive waste tanks in 6 years as
required by the Tri-Party Agreement, the Department directed
Richland to complete core sampling in 3 years. Accelerating core
sampling will cost the Department over $71 million, based on
Richland's 1994 Implementation Plan. Second, Richland agreed to
have 80 percent of low-level waste sample analyses performed
within 25 miles of Hanford. This agreement will increase the
sample analysis costs by about $46 million. Neither the
Department nor Richland knew the additional costs associated with
these decisions before they implemented the changes because they
did not prepare economic analyses of alternatives as required by
Department guidance. As a result, the Department may spend over
$117 million more than necessary to characterize high-level
radioactive waste and analyze samples of low-level waste.

RECOMMENDATIONS

     We recommend that:

     1.   The Assistant Secretary for Environmental Management:

         a. Notify the Safety Board and other parties that the
Department will satisfy the requirements of
Recommendation 93D5 by using cost-effective,
scientifically defensible, technical methods
rather than through a heavy reliance on core
sampling as proposed in Richland's January 1994
Implementation Plan.

         b. Instruct Richland to develop an Implementation
Plan to ensure that characterization objectives
are completed efficiently, economically, and are
technically defensible.

         c. Establish procedures to ensure that economic
analyses are performed before making major
program changes as required by Department Order
             4700.1 and Department Cost Guide MA-0063, Volume 1.

     2.   The Manager, Richland Operations Office:

    a. Develop procedures to ensure that economic
analyses of all alternatives are completed
before changes are made to existing agreements
in accordance with Department Order 4700.1 and
Department Cost Guide MA-0063, Volume 1.

    b. Propose to the Tri-Party participants under the
conditions of the Tri-Party Cost and Management
Efficiency Initiative, that the Department (1)
request proposals for new sample analyses
contracts without the 25-mile restriction, and
(2) cancel the contracts that require 80 percent
of the low-level waste sample analyses be
performed within 25 miles of Hanford, when the
new contracts are awarded.


MANAGEMENT REACTION

     Management concurred with the finding and recommendations.
Detailed management and auditor comments are discussed in Part
III of this report.

                        DETAILS OF FINDING

     The Department designated Hanford's environmental
restoration and waste management activities as two programs to be
managed as Major System Acquisitions. Thus, Hanford's site
characterization activities must be managed in accordance with
Department Order 4700.1. This Order, along with Department Cost
Guide MA-0063, Volume 1, requires that project managers evaluate
and select alternatives to ensure project goals are accomplished
effectively and economically. Additionally, the Department Cost
Guide requires management to perform economic analyses of
alternatives and select the alternatives that will accomplish
program goals economically and efficiently.

     In addition to adhering to Department guidance, management
also had to follow the provisions of the Tri-Party Agreement.
These provisions include an action plan containing enforceable
milestones, methods, procedures, and plans for the remediation
and restoration of each waste site. The Tri-Party Agreement also
requires all participants to consider cost reduction measures.
Under this provision, Richland could submit cost reduction
alternatives for completing milestones, including the two
milestones discussed in this report: characterization of
high-level radioactive waste and low-level waste sample analyses.

Accelerating Characterization of High-Level Radioactive Waste

     Richland developed a plan to complete characterization of
the 177 high-level radioactive waste storage tanks by 1999 as
stipulated in the Tri-Party Agreement. According to the plan,
characterization was to be accomplished primarily through the
analyses of core samples. The Department later adopted a Safety
Board recommendation and directed Richland to accomplish the
characterization by 1996. Using the requirements and schedule in
Richland's January 1994 Implementation Plan, we determined that
accelerating the characterization program and completing all core
sampling by 1996 will increase cost by over $71 million as shown
in the table below.

             Additional Resources Needed To Accelerate
               Core Sampling and Their Related Cost

                                                   Cost in
                                                    millions

          Upgrade/Use of Off-Site Labs                $29.8
          Additional Core Sampling Crews (5)           26.3
          Additional Sampling Trucks (2)               10.2
          Additional Specialty Sampling Crews (3)       4.5
          Design and Procurement of Casks               0.6
                                                     -------
          Total Additional Costs of
          Accelerating Characterization               $71.4
                                                     -------

     The Department made the decision to accelerate high-level
radioactive waste characterization without determining the
additional cost and weighing that cost against the benefits to be
achieved from an accelerated effort. In its response to the
draft of this report, the Department stated that its estimate for
acceleration was $23.4 million. The Department pointed out that
the increased cost was justified based on the benefits to its
policy of making waste tank safety issues a high priority and the
benefits of allowing early selection of pre-treatment methods and
related technologies. Although there may be benefits from
accelerated characterization, accelerating core sampling is not
needed to resolve safety issues nor will it significantly impact
selection of pre-treatment methods and related technologies.

     Accelerated Core Sampling Not Needed to Satisfy Safety
Issues. Core sampling all 177 tanks for safety reasons is not
necessary. According to Richland and Westinghouse characteriza-
tion officials, the 177 high-level radioactive waste tanks can be
safety screened by October 1, 1996, using less costly methods
such as auger, liquid grab, and vapor sampling. According to
characterization officials, safety issues primarily concern a
tank's explosive potential. This explosive potential exists
because some tanks contain ferrocyanide and organic compounds and
because some tanks vent flammable gases. By using the sampling
technologies described above, tank conditions that could cause
explosions will be known and can be controlled by adjusting tank
ventilation, adding water, or by mixing the waste to release
gases.

     Additionally, an accelerated core sampling program was not
required by the Safety Board in its Recommendation 93-5. The
Safety Board recommended that all 177 tanks be safety screened by
October 1, 1996, and that the Department accelerate its
characterization program. However, the Safety Board did not
recommend completing core sampling by October 1996. In fact, in
its recommendation, the Safety Board stated that the Department
should not let its tank characterization schedule interfere with
the safety screening of tanks. Moreover, using a level of effort
of two core samples per tank is not scientifically or technically
defensible for waste tank characterization.

     Accelerated Core Sampling Not Required In The Selection of
Retrieval and Pre-Treatment Methods. In its response to our
draft report, management stated that without the data obtained
through accelerated characterization, waste retrieval would be
more costly. Management reasoned that without accelerated
characterization, the most robust and costly retrieval technology
would have to be used to ensure waste retrievals were successful.
However, also included in management's response is a study that
shows that the least costly retrieval method was successfully
used to retrieve waste from 53 tanks during the 1950s and 1960s.

     Furthermore, the composition of the waste has continually
changed since first being put into the tanks. Therefore, if the
Department completes the accelerated characterization, the waste
composition will change during the time period characterization
is completed in October 1996 and the time for retrieval, which is
scheduled to start in 2003, and will continue until vitrification
is completed in 2028. According to characterization officials,
the best characterization strategy is to carry out much of the
pre-treatment characterization process after the waste is
retrieved from the tanks, not while the waste is in storage.

Procuring Low-Level Waste Sample Analyses

     Under the Tri-Party Agreement, Richland had planned to
procure low-level waste sample analyses competitively from
off-site laboratories. During the January 1993 Tri-Party
milestone renegotiations, however, Richland agreed to change to a
new sample analyses procurement strategy. This new strategy
required that 80 percent of all low-level waste sample analyses
be performed within 25 miles of Hanford. Richland management
changed to this new procurement strategy because it believed the
change would be more acceptable to the other Tri-Party Agreement
participants. However, there were no existing laboratories
within the 25-mile restriction. In order to comply with the
25-mile restriction, therefore, bidders had to obtain or
construct laboratory facilities. As a result, the costs
increased substantially. We calculated the lowest responsive
bid, without the 25-mile restriction, was $194 million; whereas,
the low bid with the 25-mile restriction was $240 million for the
same analytical capabilities. Therefore, the decision to require
that 80 percent of all low-level waste samples be analyzed within
25 miles of Hanford will cost the Department $46 million more
over the next 8 years.

Lack of Economic Analyses

     Although the cleanup of Hanford is controlled by many
forces, such as the Tri-Party Agreement, the Department and
Richland are responsible for overall project management. Project
management activities are guided by the Cost Guide which requires
project managers to fully evaluate alternatives to ensure those
selected are the most cost-effective methods to achieve project
goals.

     Neither the Department nor Richland, however, performed an
economic analysis to weigh the costs against the benefits to be
realized from (1) characterizing the high-level radioactive waste
in 3 rather than 6 years, and (2) procuring sample analyses
within 25 miles of Hanford. Management stated that economic
analyses were not performed because such analyses were not
required for ongoing Department programs. Department guidance,
however, states that project managers should perform economic
analyses to ensure rational and cost-effective decision making.

     Although management did not think that economic analyses
were necessary for ongoing programs, it stated that discussions
of the work scope with Westinghouse are continuing. Once a
consensus is reached, a full life cycle cost analysis will be
performed to estimate the total cost of accelerating the
schedule. While we agree that a full life cycle cost analysis
should be performed, the intent of the Department guidance is to
perform economic analyses before decisions are made, not after.

Potential Savings

     By not accelerating the core sampling schedule and by
removing the 25-mile restriction for the analyses of low-level
waste, the Department and Richland could potentially save over
$117 million. First, the Department could save over $71 million
by retaining the characterization schedule of 6 years mandated by
the Tri-Party Agreement, and satisfy safety concerns through
safety screening and by continuing to monitor the high-level
radioactive waste. Second, based on proposals received by
Westinghouse, off-site sample analyses are significantly less
costly and at least as effective as subcontracting within 25
miles of Hanford. If Richland stayed with its competitive
procurement strategy for sample analyses rather than restricting
the performance of sample analyses to within 25 miles of Hanford,
it could avoid spending at least $46 million. Furthermore, we
believe the 25-mile restriction is a less than desirable
precedent that the Department should avoid not only at Hanford
but at other Department sites as well. To do otherwise could
result in increased costs throughout the Department.
                             PART III

                    MANAGEMENT AND AUDITOR COMMENTS

     The Department agreed to perform economic analyses when
evaluating major program changes and to re-bid the low-level
sample analyses contract once Tri-Party concurrence is obtained
to eliminate the near-site restriction. Additionally, because of
technical difficulties, the Department notified the Safety Board
that the Department plans to satisfy the requirements of
Recommendation 93-5 by safety screening high-level radioactive
waste tanks rather than through a heavy reliance on core sampling
as originally proposed in Richland's January 1994 Implementation
Plan. The Department disagreed with our estimate of the savings
which will occur if its January 1994 Implementation Plan is not
implemented. A summary of management and auditor comments
follow.

Recommendation 1.a. Notify the Safety Board and other parties
that the Department will satisfy the requirements of
Recommendation 93-5 by using cost-effective, scientifically
defensible, technical methods rather than through a heavy
reliance on core sampling as proposed in Richland's January 1994
Implementation Plan.
     Management Comments. On January 19, 1995, the Department
discussed with the Safety Board, a new Department strategy to
satisfy the requirements of Recommendation 93-5. This new
strategy anticipates satisfying the requirements of 93-5 by
safety screening high-level radioactive waste tanks, without a
heavy reliance on core sampling as originally proposed in
Richland's January 1994 Implementation Plan.

Recommendation 1.b. Instruct Richland to develop an
Implementation Plan to ensure that characterization objectives are
completed efficiently, economically, and are technically
defensible.

     Management Comments. The Department has directed Richland to
develop an implementation plan to satisfy the requirements of the
Safety Board's Recommendation 93-5 that is cost-effective and
scientifically defensible and that does not place a heavy reliance
on core sampling as originally proposed in Richland's January 1994
Implementation Plan.

     Auditor Comments Recommendations 1.a. and 1.b.
Recommendations 1.a. and 1.b. are somewhat different than those in
our Official Draft Report. We contacted the Department and
Richland and obtained concurrence with our revisions. Management
agreed with the intent of our recommendations and no longer plans
to accelerate the core sampling schedule and has informed the
Safety Board of its plan. Although we have not fully reviewed
Richland's revised plan to satisfy Recommendation 93-5, we
consider management's actions to be responsive to our concerns
related to evaluating the costs and benefits of alternatives.

Recommendation 1.c. Establish procedures to ensure that economic
analyses are performed before making major program changes as
required by Department Order 4700.1 and Department Cost Guide
MA-0063, Volume 1.

     Management Comments. Management concurred and stated that it
will take the necessary steps to ensure economic analyses are
performed before making major program changes.

     Auditor Comments.   The proposed action is responsive to our
recommendation.

Recommendation 2.a. Develop procedures to ensure that economic
analyses of all alternatives are completed before changes are made
to existing agreements in accordance with Department Order 4700.1
and Department Cost Guide MA-0063, Volume 1.

     Management Comments. Management concurred and stated it will
take the necessary steps to ensure economic analyses of
alternatives are performed before making changes to existing
agreements.

     Auditor Comments.   The proposed action is responsive to our
recommendation.
Recommendation 2.b. Propose to the Tri-Party participants under
the conditions of the Tri-Party Cost and Management Efficiency
Initiative, that the Department (1) request proposals for new
sample analyses contracts without the 25-mile restriction, and (2)
cancel the contracts that require 80 percent of the low-level
waste sample analyses be performed within 25 miles of Hanford,
when the new contracts are awarded.

     Management Comments. Management concurred and stated that it
will re-bid the present contract once the 25-mile requirement is
eliminated.

     Auditor Comments.   The proposed action is responsive to our
recommendation.

Additional Management Comments.

     Management Comments. Management stated that our estimate of
the increased cost to complete characterization in 3 rather than 6
years was too high. Management stated that the cost associated
with acceleration is $23.4 million.

     Auditor Comments. We estimated the increased cost associated
with accelerating the characterization program from 1999 to 1996
to be over $71 million. Management's estimate was $23.4 million.
The cause of the variance is that each estimate was based on a
different start and completion date. Our estimate of $71 million
was based on Richland's January 1994 Implementation Plan which is
based on characterizing an average of two core samples from each
of the 177 high-level waste tanks by October 1996. However,
management's estimate of $23.4 million was based on completing
characterization of the core samples by April 1998, 18 months
later than the 1994 Implementation Plan. To compare the two costs
is therefore misleading and it is incorrect to do so.

     Through discussions with Richland and Westinghouse officials
and a review of management's comments to our draft report, we
determined that management's estimate of $23.4 million was not
based on Richland's 1994 plan, but was based on a later Integrated
Sampling Schedule. To compare the cost of acceleration under the
integrated schedule to the 1994 schedule is invalid because each
has a different start date and a different completion date. For
example, the 1994 plan was to begin in April 1994, with completion
on October 1, 1996. On the other hand, the integrated plan had a
start date of February 1995 and a completion date of April 1,
1998. Under the integrated schedule, Richland only accelerated
characterization by 18 months (from October 1999 to April 1998) as
opposed to 36 months (from October 1999 to October 1996) under the
1994 plan. Also, the integrated sampling schedule contemplated
the use of one off-site laboratory while the January 1994
Implementation Plan showed use of two off-site laboratories.

     Management Comments. Management stated that additional
laboratory support was needed whether or not the core sampling
schedule was accelerated. As support for additional back-up
laboratory services, management stated that one of Hanford's two
laboratories was taken out of service and has been out of service
for more than 6 months. According to management, this shutdown
would have materially impacted any characterization schedule.

     Auditor Comments. We confirmed that a Hanford laboratory had
been shutdown. However, the laboratory was shutdown by Richland
not for technical reasons, but for poor radiation control
procedures. The laboratory remains closed because of
recertification problems. This shutdown did not impact
characterization activities as there were other laboratory
resources on-site. Richland officials stated that had the
laboratory been critical to operations or had the recertification
problems been foreseen, the laboratory probably would not have
been closed.

     Finally, the shutdown laboratory presently has only one hot
cell available for the extrusion of samples, and therefore its
availability would not significantly impact any characterization
effort. However, if Richland's primary laboratory, which has nine
hot cells, was shutdown, Richland would not have the ability to
extrude sufficient core samples for shipment to off-site
laboratories for analysis. Therefore, back-up off-site laboratory
capability would be unusable for Hanford environmental support.

     Management Comments. Management stated that the proposed
strategy to eliminate core sampling for most safety screening has
not been fully approved, that a cost versus benefit evaluation has
yet to be performed, and that a technical basis for the strategy
has yet to be developed.

     Auditor's Comments. While the above statement is true, it is
certainly not a basis for not pursuing the new safety screening
strategy. Completing core sampling by 1996 is not technically
feasible and Richland officials believe the new strategy can meet
the requirements of the Safety Board's recommendation. It is true
that the technical basis for the new strategy must be developed
but the technical basis for core sampling had yet to be developed,
a year after it was first proposed.

                 EXAMPLE OF CUSTOMER RESPONSE FORM

                                                     IG Report No. DOE/IG-0368

                      CUSTOMER RESPONSE FORM

     The Office of Inspector General has a continuing interest in improving
the usefulness of its products. We wish to make our reports as respon-
sive as possible to our customers' requirements, and therefore ask that
you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future
reports. Please include answers to the following questions if they are
applicable to you:

     1.   What additional background information about the selection,
scheduling, scope, or procedures of the audit or inspection would
have been helpful to the reader in understanding this report?

     2.   What additional information related to findings and recommenda-
tions could have been included in this report to assist management
in implementing corrective actions?

     3.   What format, stylistic, or organizational changes might have made
this report's overall message more clear to the reader?

     4.   What additional actions could the Office of Inspector General have
taken on the issues discussed in this report which would have been
helpful?

     Please include your name and telephone number so that we may contact you
should we have any questions about your comments.

     Name                                        Date

     Telephone                                   Organization

     When you have completed this form, you may telefax it to the Office of
Inspector General at (202) 586D0948, or you may mail it to:

            Office of Inspector General (IG-1)
            Department of Energy
            Washington, D.C. 20585
            ATTN: Customer Relations

     If you wish to discuss this report or your comments with a staff member
of the Office of Inspector General, please contact Rob Jacques at (202)
586D3223.
